                           Office of the Inspector General
                   Corporation for Nationalland Community Service




                           Evaluation of the Corporation's
                          Oversight and Monitoring of the
                            Cooperative Agreement with
                       the National Association of Child Care
                           Resource Referral Associations

                          OIG Audit Report Number 00-04
                                October 28,1999




                                        Prepared by:
                                     Ernst & Young, LLP
                                1225 Connecticut Avenue, N. W
                                   Washmgton, D.C. 20036

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                     Contract # J9G80021
                                    Task Order B9G9U101



This report was issued to Corporation management on December 14,1999. Under the
laws and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
June 11,2000, and complete its corrective actions by December 14,2000. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                         CORPORATION

                              Office of the Inspector General                            FOR NATIONAL
                      Corporation for National and Community Service                      SERVICE

Evaluation of the Corporation's Oversight and Monitoring of the Cooperative Agreement
      with the National Association of Child Care Resource Referral Associations
                           (OIG Audit Report Number 00-04)

The Office of the Inspector General engaged Ernst & Young, LLP to evaluate and report on the
Corporation's oversight and monitoring of its child care benefits program, which is administered by
the National Association of Child Care Resource Referral Associations under a cooperative
agreement (CA94TTPDC001). The review covered the Corporation's oversight and monitoring
practices during the period June 1994 through September 1999. We have reviewed the report and
work papers supporting its conclusions and agree with the findings and recommendations presented.

The auditors concluded that the Corporation must strengthen the oversight and monitoring of the
child care benefits program. The conditions leading to this conclusion included:

               the Corporation has not established comprehensive policies or performed sufficient
               procedures necessary to oversee and monitor its cooperative agreement with
               NACCRRA;

               the Corporation does not obtain and maintain sufficient information to analyze the
               costs of child care; and

               the Corporation has not required NACCRRA to provide all financial and
               performance reports required by the cooperative agreement.

The report discusses these conditions in detail and provides other information related to the child
care benefits program. In responding to a draft of this report, the Corporation stated that it had
reviewed the draft but did not have specific comments. The Corporation's response is included as
Appendix 11.




                                                                                      Inspector General
                                                                                      1201 New York Avenue. NW
                                                                                      Washington, DC 20525
                           TABLE OF CONTENTS

                                                     Page

Results in Brief                                         1

Background                                               1

Methodology and Scope                                   2

Observations and Recommendations                        3

Key Procedures Performed                       Appendix I

Corporation Response                           Appendix I1
                                                     1225 Connecticut Avenue, N.W.     Phone:   202 327 6000
                                                     Washington, D.C. 20036




October 28, 1999

Inspector General
Corporation for National and Community Service

Ernst & Young, LLP, was engaged by the Office of the Inspector General, Corporation
for National and Community Service, to evaluate and report on the adequacy of the
Corporation's procedures to oversee and monitor the cooperative agreement that provides
child care benefits for eligible participants in certain Corporation programs.

To assess the Corporation's oversight of the National Association of Child Care and
Resource Referral Association's adherence to the cooperative agreement and meeting the
intended objectives of the program, we reviewed the cooperative agreement between the
Corporation and NACCRRA, as well as reports prepared in accordance with the agreement,
and interviewed Corporation and NACCRRA staff to assess the Corporation's oversight of
NACCRRA's performance. Based on the procedures performed, we believe that the
Corporation must strengthen the oversight and monitoring of its cooperative agreement.
Specifically, we found that the Corporation:

    has not established comprehensive policies or performed sufficient procedures necessary to
    oversee and monitor its cooperative agreement with NACCRRA;

    does not obtain and maintain sufficient information to analyze costs of child care; and

    has not required NACCRRA to provide all financial and performance reports required
    under the cooperative agreement.

We recommend that the Corporation strengthen its oversight of the cooperative agreement by
establishing policies and implementing procedures to effectively monitor NACCRRA's costs
and performance. Specific recommendations are discussed in detail in this report.

BACKGROUND

The Corporation awards grants to organizations to assist in the creation of full and part time
national and community service programs. Participants in these programs perform services to
meet educational, human, environmental, and public safety needs throughout the nation. In
return for this service, participants receive, if eligible, a living allowance, post service education
benefits, and child care benefits.
Child care benefits have been administered by NACCRRA under a cooperative agreement with
the Corporation since June 1, 1994. Under the cooperative agreement, NACCRRA is
responsible for planning, operating, and managing training and technical assistance for child
care needs within the AmeriCorps Staternational and VISTA programs. The agreement also
empowers NACCRRA to make monthly payments, on behalf of the Corporation, to child care
providers for eligible participants.

Management of the Corporation has reported that, during the period of June 1, 1994 through
December 31, 1998, the Corporation authorized funding for NACCRRA of $29.0 million, of
which $25.9 million was for provider payments and $3.1 million for training and technical
assistance. NACCRRA reported expenditures of $9.8 million in 1998 for provider payments
and training and techcal assistance.

Under Office of Management and Budget Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations, NACCRRA is required to have an annual audit.
The Circular A-133 audits of NACCRRA's financial statements and activities have indicated
numerous internal control weaknesses at NACCRRA. Specifically, the audit reports for the
years ending 1995 through 1998 documented a variety of issues at NACCRRA including, but
not limited to:

    financial reports that could not be traced to supporting documentation andfor the general
    ledger;

    subsidiary ledgers that did not agree to the general ledger;

    failure to perform key reconciliations;

    deficiencies in payment documentation; and

    numerous internal control weaknesses related to payroll, including unauthorized payments.

METHODOLOGY AND SCOPE

In planning and performing our evaluation, we reviewed the cooperative agreement between
the Corporation and NACCRRA, reviewed reports prepared under the agreement, interviewed
Corporation and NACCRRA personnel, and performed such tests as deemed necessary, to
assess whether the Corporation had a process which effectively monitored and measured
NACCRRA's performance in accordance with the terms and conditions of the cooperative
agreement.
Our work was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States and consulting standards of the American
Institute of Certified Public Accountants and did not constitute an audit or any other form
of assurance on any financial information. Additional information on our methodology can
be found in Appendix I.

We provided a draft of this report to the Corporation for comment. The Corporation stated
that it reviewed the draft report but did not have specific comments at this time. The
Corporation's response is included as Appendix I1 to this report.

OBSERVATIONS AND RECOMMENDATIONS

Based on the weaknesses identified at NACCRRA and our evaluation of the Corporation's
oversight, we believe that the Corporation has not established comprehensive policies, nor
performed sufficient procedures necessary to oversee and monitor its cooperative agreement
with NACCRRA; does not obtain and maintain sufficient information to analyze costs of
the child care program; and has not required NACCRRA to provide all financial and
performance reports required under the cooperative agreement. Specific observations and
recommendations of steps the Corporation should take to strengthen its management of the
cooperative agreement in several key areas are described below.

I.     The Corporation has not established comprehensive policies nor performed
       sufficient procedures necessary to oversee and monitor its cooperative agreement
       with NACCRRA.

OMB Circular A-123, Management Accountability and Control Policies, requires Federal
agencies to establish policies and procedures to reasonably ensure that (i) programs
achieve their intended results; (ii) resources are used consistent with agency mission; (iii)
programs and resources are protected from waste, fraud, and mismanagement; (iv) laws
and regulations are followed; and (v) reliable and timely information is obtained,
maintained, reported and used for decision making.

Corporation GuidelinesDo Not Adequately Address Oversight of CooperativeAgreement

The Corporation has issued formal guidelines for grants management and assigned
responsibility for fiscal management of the NACCRRA cooperative agreement to a
specific grants officer. However, the guidelines are general in nature and do not address
the activities unique to the cooperative agreement between the Corporation and
NACCRRA.
The Corporation has not developed written guidance, specific to this cooperative
agreement, which addresses both financial and program oversight issues; and the
Corporation has not clearly assigned the responsibility for programmatic oversight. The
responsibility for oversight should be clearly defined and specific guidance for overseeing
the child care program and cooperative agreement should be available for adequate
program oversight to be performed. Otherwise key oversight fbnctions may not be
performed or corporate knowledge may be lost in the event of employee turnover.

VISTA CARE Reports Not Reviewed

We also found that the Corporation has not established written procedures for reviewing
the VISTA CARE Monthly Reports received from NACCRRA. NACCRRA prepares
VISTA CARE Monthly Reports which present a detailed listing of payments made to
child care providers on behalf of eligible volunteers. Our review of these reports revealed
payments made to child care providers that are in excess of the $300/month limit
stipulated for VISTA members. In an average month, we found that 10-15 payments (out
of approximately 450) were for $1.00 - $50.00 more than the $300 limit. The
Corporation has not consistently reviewed these payment amounts and Corporation
personnel could not provide an adequate explanation for why these overpayments
occurred.

In addition, certain VISTA members received child care benefits after they were no longer
eligible. A review of the VISTA CARE Monthly Reports from December 1998 through
April 1999 revealed provider payments for six volunteers for child care services provided
after they terminated their participation in the program. AmeriCorps Provisions stipulate
that it is the responsibility of the Program ~ i r e c t o r to
                                                             ' notify NACCRRA immediately (in
writing) when a member is no longer eligible for child care benefits. In the cases cited,
Program Directors may not have notified NACCRRA of change in status in a timely
manner or NACCRRA failed to make the eligibility change in its system.

Even when the Corporation detects overpayments, as noted above, it does not have
written follow-up procedures in place. As a result, payments have been erroneously made
to providers for child care services when members were not eligible for benefits, and
neither NACCRA or the Corporation has made any attempt to recover these funds.




1
    The reference is to the Program Director at a Corporation grantee.


                                                       4
FSRs Not Reconciled

NACCRRA uses Financial Status Reports (FSRs) to report to the Corporation financial
information related to the cooperative agreement. However, the Corporation does not
reconcile finding information on the FSRs to amendments to the cooperative agreement
or to the Health & Human Services Payment Management System (PMS) on a consistent
basis. Likewise, there is no evidence to indicate that drawdown information reported on
the FSRs is reconciled to PMS on a consistent basis. The cooperative agreement requires
NACCRRA to submit FSRs to the Corporation on a quarterly basis and the Corporation
Grant Management Guidelines require grants management staff to perform a review of
drawdowns. Failure to reconcile these documents impairs the Corporation's ability to
effectively monitor finding status and costs. This is especially important in light of
Circular A-133 audits of NACCRRA that have reported that FSR's were prepared which
did not agree to accounting records, resulting in inaccurate cost information reported to
the Corporation.

Reasonableness of Payments Not Determined

In addition, the Corporation does not perform procedures to assess the reasonableness of
provider payments. Corporation personnel stated that they rely on Circular A-133 audits
of NACCRRA to assess whether h n d s drawn are spent appropriately and the amounts
reported to the Corporation are accurate; however, NACCRRA did not submit a Circular
A-133 audit to the Corporation until March 1998, almost four years after NACCRRA
began administering the child care program under the cooperative agreement. This lack of
controls over child care related payments exposes the Corporation to a greater risk of loss
due to waste, fraud and abuse.

NACCRRA Performance Not Monitored

We also noted that the Corporation does not independently verifjr NACCRRA's performance
in managing the child care program. For example, NACCRRA, under the contractual
obligations stated in the cooperative agreement, is responsible for:

   providing information to all programs hnded under ArneriCorps on determining
   participant eligibility for child care;

   providing information to all programs and their participants on finding affordable, high
   quality child care; and

   ensuring that NACCRRA makes payments directly to qualified child care providers
   under Child Care Development Block Grant provisions.
However, the Corporation has no reporting or testing procedures in place to determine if
these services were actually provided as required. Through a combination of training,
handbooks, and application documents, the Corporation informs State Commissions and
programs of the child care benefits available through NACCRRA and their responsibility
for assisting participants in obtaining child care benefits. The Corporation then relies on
the State Commissions, programs, and individuals to hlfill their responsibilities for
obtaining these services, but does not perform its own procedures to determine if these
services were actually provided.

Recommendations

We recommend that the Corporation:

   develop and document specific policies and procedures for performing financial and
   program oversight of the child care benefits program for AmeriCorps*State/National
   and AmeriCorps*VISTA;

   assign responsibility for programmatic oversight of the child care cooperative
   agreement to a member of the Corporation staff,

   establish specific procedures to review monthly payments for VISTA members and
   contact NACCRRA to verifl the validity of, or obtain explanations for, payments over
   the $300 limit;

   re-emphasize to program managers and NACCRRA the requirement for timely
   updates of changes in eligibility status;

   reconcile grant and drawdown information in the quarterly FSRs to PMS and the
   amendments to the cooperative agreement (grant information only) each quarter;

   implement review procedures that include obtaining detail payment records reconciled
   to drawdowns by NACCRRA, reviewing the records for mathematical accuracy and
   any unusual paymentslactivity, and selectively testing transactions; and

   periodically perform programmatic reviews of NACCRRA's performance under the
   cooperative agreement to determine if it is operating as intended.
11.     The Corporation does not obtain and maintain sufficient information to
        analyze costs of the child care program.

To achieve the accountability objectives of OMB Circular A-123, the Corporation must
obtain and maintain sufficient information to analyze costs of the child care benefits as
part of its internal controls.

Information to Independently Evaluate Costs Not Obtained

We found that the Corporation does not have sufficient information to independently
evaluate funding requests from NACCRRA. For example, the Corporation does not
maintain a database of members eligible for, and receiving, child care benefits.
According to the contractual obligations stated in the cooperative agreement, NACCRRA
is to develop and coordinate an AmeriCorps*CARE database with the Corporation's
Trust Fund database (used for education benefits). A link between the
ArneriCorps*CARE database and the Trust Fund database would provide the Corporation
with information related to the number of participants eligible for, and receiving, child
care benefits. To date, the link has not been established and therefore the Corporation
must rely on NACCRRA for this inf~rmation.~      However, NACCRRA's computer system
cannot provide summary reporting and, as a result, the Corporation cannot readily
determine how many members are eligible for, and receiving, child care. Therefore, the
Corporation cannot independently evaluate whether NACCRRA7s funding requests are
reasonable.

The lack of information was apparent when, as part of our evaluation, we attempted to
compare the amounts paid by the Corporation for child care benefits to reasonable
standards for child care benefit payments. Monthly enrollment information is needed to
determine the amount of service provided for the costs incurred. Since the Corporation
does not maintain child care benefit enrollment information, and, as noted above,
NACCRRA's computer system cannot readily provide this information, we were unable
to perform this comparison. Without monthly enrollment information it is not possible to
compare the Corporation's child care costs to other similar programs.




 In May 1995, OIG first reported that NACCRRA had not established a link with the Trust Fund data base
as required under the cooperative agreement (OIG Audit Report 95-01, Initial Year Review of National
Association of Child Care and Resource Referral Agencies).
Ofjcial Grant Files Not Properly Maintained

In addition, our review of the cooperative agreement file documentation for the period of
June 1, 1994 through December 3 1, 1998 indicated that one of seventeen fund
certifications issued during this time frame was missing from the cooperative agreement
file. Furthermore, one of nineteen amendments to the cooperative agreement was not
signed by NACCRRA. The Corporation's grant management guidelines state that each
official grant file should have a checklist which is updated with each award or amendment.
We noted that no checklist of required documents/approvals is maintained for amendments
to the cooperative agreement with NACCRRA. Failure to maintain a checklist of required
documents and approvals may lead to delays in detecting missing and incomplete
information. In the event of misunderstandings, disputes, litigation or claims, the
Corporation may not be able to defend its position without the proper documentary
support.

Our review of the cooperative agreement file documentation for June 1, 1994 through
December 31, 1998 also revealed that 10 of the 18 required quarterly FSRs prepared by
NACCRRA were missing. The cooperative agreement requires NACCRRA to submit
FSRs to the Corporation on a quarterly basis and the Corporation Grant Management
Guidelines require grants management staff to perform a review of drawdowns. Failure to
obtain and/or maintain these documents impairs the Corporation's ability to effectively
monitor cost and funding status of the program.

Furthermore, we noted that two 1997 and four 1996 VISTA CARE Monthly Reports
were missing from the VISTA file. Each month a Corporation Member Support Specialist
compares eligibility records to bill dates on the VISTA CARE Monthly Reports. If
volunteers were not eligible for child care benefits for the month billed, the amount should
be refunded. Without these reports, the verification cannot be performed.
Indirect Cost Rate Proposals Not Reviewed and Approved as Required

Finally, the cooperative agreement requires NACCRRA to annually submit an indirect rate
proposal to the Corporation for review and approval. We requested copies of approved
indirect rate plans for 1994 through 1998; however the Corporation was only able to
provide a copy of the indirect rate proposal for 1998. In addition, the Corporation's
financial management consultant responsible for the rate agreement approved the 1998
rate (which has within it language to extend it through 1999) but then left the organization
before documenting his approval in a formal indirect rate agreement. Without approved
indirect cost agreements, the Corporation does not have an appropriate basis for
evaluating amounts budgeted and claimed for expenditures.

Recommendations

We recommend that the Corporation:

   work with NACCRRA to updateldevelop computer software and related procedures
   that allow NACCRRA and the Corporation to maintain and report information on
   participant eligibility and use of child care benefits and to reconcile the two databases;

   prepare and follow a checklist to determine that documents required in the cooperative
   agreement file are complete and proper approval has been obtained for all contract
   actions;

   obtain, review, and maintain copies of all quarterly FSRs in the cooperative agreement
   file;

   follow up with NACCRRA representatives to facilitate timely receipt, retention, and
   review of VISTA CARE Monthly Reports;

    obtain indirect rate proposals from NACCRRA and prepare formal rate agreements on
    a timely basis; and

    complete and document its approval of the' 1998 and 1999 indirect cost rates as soon
    as possible.
III.   The Corporation has not required NACCRRA to provide all financial and
       performance reports required under the cooperative agreement.

The cooperative agreement between the Corporation and NACCRRA requires
NACCRRA to submit certain financial and performance related reports. Enforcement of
NACCRRA's requirements under the terms of the cooperative agreement is consistent with
the following Corporation responsibilities as specified in OMB Circular A-1 33 :

   "Advise recipients of requirements imposed on them by Federal laws, regulations, and
   the provisions of contracts;

   Ensure that audits are completed and reports are received in a timely manner and in
   accordance with the requirements of this part;

   Provide technical advice and counsel to auditees and auditors as requested; and

   Issue a management decision on audit findings within six months after receipt of the
   audit report and ensure that the recipient takes appropriate and timely corrective
   action."

During our testing, we noted that the Corporation has not consistently obtained these
documents from NACCRAA. For example, the Corporation has not obtained annual
financial plans comparing budgeted to actual expenditures from NACCRRA. According
to the cooperative agreement, NACCRRA must submit an annual financial plan showing
amounts budgeted and expended. The Corporation does obtain this type of information
from other programs that report to it using the Corporation's Web Based Reporting
System; however, NACCRRA is not required to use this system at the present time. The
Corporation believes that it should rely on FSRs for data; however, these forms do not
provide the level of detailed information that would normally be provided in an annual
financial plan. This limits the information the Corporation has available to evaluate
NACCRRA's costslprojections for administering the child care benefit program which, as
discussed earlier, the Corporation currently does not evaluate. Failure to monitor
expenditures may result in unallowable costs being recovered by NACCRRA.

In addition, due to ambiguities in the wording of the cooperative agreement, the
Corporation has not obtained Annual Reports from NACCRRA for the years ending
December 3 1, 1996, 1997, and 1998. Corporation personnel believe the intent was to
have NACCRRA submit an annual report each year; however, the original agreement
specified only that an annual report be delivered by January 1, 1996, and a subsequent
amendment to the agreement required only a report delivered by February 1998.
NACCRRA delivered the first report January 31, 1996 and formally requested an
extension for preparing the second report. As of July 1999, NACCRRA still had not
submitted the second report. Consequently, the Corporation lacks key information on
overall program results for the years ending December 3 1, 1996, 1997, and 1998. Failure
to obtain this information impairs the Corporation's ability to evaluate program progress
and accomplishments.

Financial statement and OMB A-133 audit reports for NACCRRA have not consistently
been issued on a timely basis throughout the life of the cooperative agreement. The 1995
and 1996 Reports (issued jointly) were initially issued as disclaimers in March, 1998 and
subsequently revised and re-issued in July, 1998. The 1997 reports were not issued until
at least November, 1998. The 1998 reports were released in July, 1999. OMB A-133
guidelines for these time periods allow for 13 months for issuance of the audit reports,
thus, only the last two years of audit reports have been issued in a timely manner. Delays
in obtaining these audit reports limited the information available to the Corporation for
assessing NACCRRA's performance.

Recommendations

We recommend that the Corporation:

   require NACCRRA to submit annual financial plans and/or budget submissions that
   include budgeted to actual expenditures comparisons and related explanations for
   significant fluctuations;

   include NACCRRA in the Web Based Reporting System it is implementing in order to
   increase the amount of information provided by NACCRRA;

   revise language in the cooperative agreement to require preparation of an Annual
   Report by NACCRRA and that the Corporation obtain and review these reports on a
   timely basis; and

   require NACCRRA to submit audited annual financial statements and OM33 A-133
   reports on a timely basis.

This report is intended for the use of the management of the Corporation for National and
Community Service and the Ofice of the Inspector General, and is not intended to be and
should not be used by anyone other than these specified parties.
      Appendix I


Key Procedures Performed
KEY PROCEDURES PERFORMED                                                    APPENDIX I

Our objective in this engagement was to evaluate and report on the adequacy of the
Corporation's procedures to oversee and monitor the cooperative agreement for its child care
program. To meet this objective we performed the following:

       Obtained an understanding of key CorporatiodNACCRRA personnel and their
       responsibilities through reviewing documentation on program background and
       provisions, organization charts for the Corporation and NACCRRA, and job
       descriptions for key personnel. We also interviewed key Corporation and
       NACCRRA personnel.

       Obtained and reviewed Corporation guidance, such as Grant Management
       Guidelines, to determine whether effective policies and procedural guidance is
       available to those involved in monitoring and overseeing the program. We also
       assessed whether staff are required to document agreement actions and provided
       specific guidance and direction to carry out these responsibilities.

       Obtained and reviewed Grants Management Guidelines for Staff Training and
       Development to determine whether adequate training and enhancement for skills,
       knowledge, and abilities needed to perform grant management job functions is
       available.

       Obtained and reviewed the cooperative agreement between the Corporation and
       NACCRRA as well as subsequent modificationslamendments, and reports
       preparedlsubmitted under the cooperative agreement, including: VISTA CARE
       Monthly Reports, Quarterly FSR's, Annual BudgetsEinancial Plans, Annual
       Reports, and Indirect Rate Proposals.

       Determined the extent of performance of cooperative agreement obligations
       through inquiry of client personnel and corroborated through review of available
       documentation, reports, and correspondence maintained in cooperative agreement
       file.

       Obtained and reviewed the OMB A-133 audit reports of NACCRRA's
       independent auditors for 1995 through 1998.

       Reviewed the OMB A-133 audit workpapers of NACCRRA's independent
       auditors for 1996 through 1998.

       Identified benchmarks through review of other reasonable standards for child care
       payments.
    Appendix I1


Corporation Response
                                                                    CORPORATION

                                                                    FOR NATIONAL




  MEMORANDUM



  DATE:                    December 6, 1999

  TO:                      Luise Jordan, OIG

  FROM:                    Bruce Cline, Director Grants Management                       .p--
  cc:                      Wendy Zenker, COO
                           Wilsie Minor, Assistant General Counsel

  SUBJECT:                 Request for comments on Draft Report 00-04, Evaluation of the
                           Corporation's oversight and monitoring of its' cooperative agreement with
                           for National Association of Child Care Resource Referral Association



  We have reviewed the draft report pertaining to the performance of the Corporation's
  oversight and monitoring of the National Association of Child Care Resource Referral
  Association (NACCRRA) under cooperative agreement 94TTPDC001. Our review was
  limited to information contained in the report.

   We will do so during the audit resolution process and will address the findings and
   recommendations in the final management decision. Therefore, we are not providing
   detailed comments at this time.




NATIONAL SERVICE: GETTING THINGS DONE                                             1201 New York Avenue, N.W. Washington, D.C. 20525
AmenCorpr   . l.rarn und S r n r A n ~ c n i u . Xut~onuiSentor S s r v u Corps                          .
                                                                                  telephone: 202-606-5000 website: www.nationakervice.org
